No. _ _ _ __

3Jn tbe ~upreme <!Court of tbe Wniteb ~tates
CANVS Corporation v. Secretary of the Air Force
AFFIDAVIT OF SERVICE
I, Shelly N. Gannon, being eighteen years or older, do certify under penalty of
perjury that the following is true and correct. On this, the 3 lst day of March, 2020, I
filed forty (40) copies of the foregoing petition with the United States Supreme Court
electronically and via UPS Ground Transportation, and served via electronic mail
and three (3) copies of the same, via UPS Ground Transportation, to the following:
Anthony F. Schiavetti
Robert Edward Kirschman, Jr.
Patricia M. McCarthy
Department of Justice
Commercial Litigation Branch
PO Box 480
Ben Franklin Station
Washington, DC 20044
(202) 305-7572
anthony .f.schiavetti@usdoj.gov
Robert.Kirschman@usdoj.gov
patricia.mccarthy@usdoj.gov

Counsel to Respondent
Shelly N. G n
Gibson Moore Appellate Services, LLC
206 East Cary Street
P.O. Box 1460 (23218)
Richmond, VA 23219
(804) 249-7770 - Telephone
(804) 249-7771 - Facsimile
shelly@gibsonmoore.net

For:
Joseph J. Zito
Counsel of Record
DNL ZITO CASTELLANO
1250 Conn. Avenue, N.W.
Suite 700
Washington, DC 20036
(202) 466-3500
jzito@dnlzito.com

Counsel for Petitioner
Signed and subscribed before me on this the 31st day of March, 2020.

